"   f-'%                            I
                                    I                          NATIONAL SCIENCE FOUNDATION
                                                                OFFICE OF INSPECTOR GENERAL
                                                                  OFFICE OF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM
                                    I


    TO: AIGI                  File Number: I00120019                                           Date: 6 June 2002
                                    I

                                    I



     Subject: Closeout Memo                                                                              Page 1 of 1
                                    I/



                                        I
                                        I


                     There was no dloseout written at the time this case was closed. The following information was
                     extracted from h e file in conformance with standard closeout documents.

                     Our ofice wasinformed that the subject' was alleged to be in violation of Animal Care and Use
                     Protocol. The ibtitution2had not done the required inspections of the facility to certify compliance
            '
                     according to the NIH Guidelines. The subject had also allegedly made a false statement on a
            '1       previous grant.d
                                        li
                     Accordingly d s case is closed.
                                        'I
                                            I
                                            I




                                            I
                                            I
                                            I
                                            18

                                             I
                                            I
                 1                          /II
                                                i

                                                I
                                            I    I

                                                 I
                                                 I
                                                 I

                     -1
                                                1
                                     I
                               Prepared by:                             Cleared by:
                              Agent: 1                  Attorney:     Supervisor:     AIGI
                                                    I
                 Name:                              I

                                                 i
                                                    I
           Signature &                              I
              date:
t                    I/
                     I
                                                  MEMORANDUM
                     I(
                     1
        Date: April :I10,200 1
                      I


        To:                             Inspector General

        From:   &                            Investigative Analyst

        RE:



                                                             ~ ~ ~ ~ a = 2 ~ ~ m
                                                             sity. D r . s t a t e d that although
                   University signs-off on the Animal Care &d ~ s e ~ r o t o cReview
                                                                                 ol      Form fir
                        their animal care facilities have never been
                                                                 -  -
                                                                      examined  by anyone  from
                                    ~ivisio-                             is currently supporting Dr.
                                   ollege. Dr.-immediately             contacted the OIG to set up a
        meeting to discuss what should be done about the situation because he clearly saw it as a
        violation of the Animal Care and Use Protocol. On an-d                             I met
        with ~ r0  .          discuss the situation, we decided that the matter should be
        investigated further..  .. .-               -~      .

                          11


        After review of the information received from the institutions as well as the principal
        investigator inbolved, the awards-d               e      r      e suspended for
        approximately~30days to allow the institution time to correct all deficiencies in their
        animal care an3 use protocol. As o          w       l all deficiencies have been corrected
        and the collegk is now in compliance with NSF as well as NIH Guidelines. Further, there
        is not sufficient evidence to substantiate any criminal wrongdoing under the USC 18 4
        1001 (false ceriifications) or loss to the government under usc 3 1 9 3729.
    ,   recommend trhsferring this case to an A-case.
                           /I
                           11

                           1
